Peter Goldberger
From:

CRUZ ROLANDO JR (72198067)

Sent Date:

Sunday, April 25, 2021 2:38 PM

To:

peter.goldberger@verizon.net

Subject:

RE: RE: Certiorari

Good evening Mr Goldberger! I'll trust your decision and allow you to withdraw my pro se petition and go forward
with yours. Again, thanks a lot for your help and concerns.
-----Goldberger, Oeter on 4/25/2021 1:51 PM wrote:
>
I do not agree that it is "nothing to worry about." I was able to access a copy of your pro se petition on the
Supreme Court's website. It was filed April 14, and on April 21 the Solicitor General (government's Supreme
Court lawyer) advised they did not intend even to file an answer, which 99% of the time (or more) is a sure
indicator of a prompt denial. I do not expect that to happen with my petition. Of the three issues in my rehearing
petition, your friend Tommy picked the second and third issues to adapt; I picked the first and third. His versions
are pretty good, but they focus too much on why the Third Circuit decision was wrong, rather than focusing on
why your case is suitable for Supreme Court review. I recommend that you authorize me to withdraw that petition
in favor of the one I filed, to give you a somewhat better chance..
- Peter Goldberger, Atty
ROLANDO JR CRUZ on 4/24/2021 8:49:31 AM wrote
Good Morning Mr Goldberger! I replied to your email this morning in regards to the certiorari before I spoke to my
paralegal. I was not aware of how things worked and was afraid it could be harmful that the Supreme Court willl
receive 2 motions from me but he advised me that I have nothing to worry about. My family and I really
appreciate you showing your dedication to helping us even when you did not have to. I'll be looking forward to
receiving the copy in the mail. Thanks a lot Mr. Goldberger!

EXHIBIT A

Page 1

of 1

4/25/2021

